WAIVER

SUPREME COURT OF THE UNITED STATES

20-1 785 .

|
Ronald W. Ogle, et al. | Sevier County Regional Planning, et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court,

Please check the appropriate box:
(0) Lam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents, I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

@ Tam a member of the Bar of the Supreme Court of the United States, (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s/Office, 1 First Street, NE, Washington, D.C. 20543),

aie _ Cilio |

Signature: IC
Date: bik |

(ype oF print) Nase [Rhonda L. Bradshaw . : |

 

 

© mr. © ws, © Mrs. O Miss
Firm ISpicer Rudstrom, PLLC |
Address (800 S. Gay Street, Suite 1400 |
City & State Knoxville | Zip HTN |
Phone \(a65) 673-8516 | Email Ib@spicertirm.com |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Mr. Gregory Brown
